<html>
<title> - THE FUTURE OF JAPAN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                          THE FUTURE OF JAPAN

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2011

                               __________

                           Serial No. 112-31

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
66-531                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                 DONALD A. MANZULLO, Illinois, Chairman
RON PAUL, Texas                      ENI F.H. FALEOMAVAEGA, American 
BILL JOHNSON, Ohio                       Samoa
DAN BURTON, Indiana                  FREDERICA WILSON, Florida
EDWARD R. ROYCE, California          GARY L. ACKERMAN, New York
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MIKE KELLY, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          DENNIS CARDOZA, California


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Battalion Chief Robert J. Zoldos II, Program Manager, U.S.A.-1/
  VA-TF1, Urban Search & Rescue, Fairfax County Fire and Rescue 
  Department.....................................................     2
Mr. Randall Schriver, Partner, Armitage International............     7
Michael J. Green, Ph.D., Senior Adviser and Japan Chair, Center 
  for Strategic and International Studies........................    14
Mr. L. Gordon Flake, Executive Director, The Maureen and Mike 
  Mansfield Foundation...........................................    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Battalion Chief Robert J. Zoldos II: Prepared statement..........     5
Mr. Randall Schriver: Prepared statement.........................    10
Michael J. Green, Ph.D.: Prepared statement......................    16
Mr. L. Gordon Flake: Prepared statement..........................    25

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois, and chairman, Subcommittee on Asia 
  and the Pacific: Prepared statement............................    44
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa:
  Prepared statement.............................................    46
  Material submitted for the record..............................    48


                          THE FUTURE OF JAPAN

                              ----------                              


                         TUESDAY, MAY 24, 2011

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2118, Rayburn House Office Building, Hon. Donald A. 
Manzullo (chairman of the subcommittee) presiding.
    Mr. Manzullo. The Subcommittee on Asia and the Pacific will 
come to order. Our first witness is Battalion Chief Robert 
Zoldos, representing Fairfax County, Virginia, Fire and Rescue. 
Chief Zoldos is in his 17th year with the Fairfax County Fire 
and Rescue Department. He currently holds the position of chief 
of the Urban Search and Rescue Team. Prior to his appointment 
to his current position, he served as the chief of the 
Technical Rescue Operations Team, the department's local and 
regional response element. With him is Ms. Massey and Atticus.
    Chief Zoldos deployed with the Virginia Task Force One, 
VATF-1, 11 times in 7 different capacities. His previous 
deployments include international rescue missions in Kenya, 
Turkey, Taiwan, Iran, Haiti, and most recently to Japan as a 
task force leader. Domestically, the chief served as rescue 
squad officer with VATF-1 at the Pentagon after the September 
11, 2001, attack.
    He is accompanied today by two members of his team, 
Jennifer Massey and Atticus Finch, a 5-year-old German 
shepherd. Ms. Massey and Atticus are integral to Virginia Task 
Force One and were deployed to Japan as part of the search and 
rescue team. Ms. Massey has been with VATF-1 since 1999, and 
she serves as president of the board of directors of the 
American Rescue Dog Association and as treasurer of the board 
of directors of the Virginia Search and Rescue Dog Association.
    Our next witness is Randy Schriver, one of five founding 
partners of Armitage International, a consulting firm 
specializing in international business and development 
strategies. He is chief executive officer and president of the 
Project 2049 Institute, a not-for-profit dedicated to the study 
of security trendlines in Asia. He is also senior associate of 
the Center for Strategic and International Studies. Immediately 
prior to his return to the private sector, he served as the 
Deputy Assistant Secretary of State for East Asian and Pacific 
Affairs, responsible for the PRC, Taiwan, Mongolia, Hong Kong, 
Australia, New Zealand, and the Pacific Islands. Prior to 
joining the Asia Bureau, he served for 2 years as chief of 
staff and the senior policy adviser to Deputy Secretary of 
State Richard Armitage. He joined the Department of State in 
March 2001 upon the swearing in of Deputy Secretary Armitage.
    Our next witness is Michael Green, a senior adviser and 
Japan chair at CSIS, as well as an associate professor of 
international relations at Georgetown University. He previously 
served as Special Assistant to the President for National 
Security Affairs and Senior Director for Asian Affairs at the 
National Security Council from January 2004 to December 2005 
after joining the NSC in 2001 as Director of Asian Affairs with 
responsibility for Japan, Korea, Australia, and New Zealand. 
His current research and writing is focused on Asia regional 
architecture, Japanese politics, U.S. foreign policy history, 
the Korean Peninsula, Tibet, Burma and U.S.-India relations.
    The next witness is L. Gordon Flake, who joined the 
Mansfield Foundation in February 1999. He was previously a 
senior fellow and associate director of the Program on Conflict 
Resolution at the Atlantic Council of the U.S. and, prior to 
that, director of research and academic affairs at the Korea 
Economic Institute of America. He has traveled to North Korea 
numerous times. He is a member of the London-based 
International Institute for Strategic Studies and he serves on 
the Board of the U.S. Committee of the Council for Security 
Cooperation in the Asia-Pacific.
    Your complete written testimonies will be made a part of 
the record. I will try to keep everybody within the 5-minute 
clock. We will just do the best we can.
    Mr. Zoldos, the floor is yours.

   STATEMENT OF BATTALION CHIEF ROBERT J. ZOLDOS II, PROGRAM 
MANAGER, U.S.A.-1/VA-TF1, URBAN SEARCH & RESCUE, FAIRFAX COUNTY 
                   FIRE AND RESCUE DEPARTMENT

    Chief Zoldos. Mr. Chairman and members of the committee, 
thank you for inviting me today to testify at this important 
hearing. I will focus my testimony today on the rescue efforts 
and the level of devastation in the aftermath of the tragic 
earthquake and tsunami.
    First I would like to extend my deepest condolences to 
those who lost loved ones, homes and livelihoods in the 
affected areas.
    On March 11 at 1446 hours in Japan, a magnitude 9.0 
earthquake, the fifth largest in the world since 1900, occurred 
on the east coast off Honshu at a depth of approximately 15 
miles. According to the U.S. Geological Survey, the epicenter 
of the earthquake was located 80 miles east of Sendai, the 
capital of the Miyagi Prefecture, and 231 miles northeast of 
Tokyo.
    The earthquake generated a large tsunami that struck the 
Fukushima Prefecture, resulting in additional fatalities and 
damage. At the time, media reports indicated that the 
earthquake and the tsunami resulted in at least 300 deaths and 
injuries.
    The United States Agency for International Development 
maintains agreements with two FEMA-certified urban search and 
rescue domestic teams, Los Angeles County in California and the 
Fairfax County team in Virginia. The teams maintain 24/7 
readiness to deploy to international disasters when requested 
by the affected country and the U.S. chief of mission.
    Within 3 hours of the earthquake, the U.S. Agency for 
International Development's Office of Foreign Disaster 
Assistance gave an alert to the two teams to begin preparing 
for a possible USAR deployment in Japan. This alert allows us 
to begin bringing in our team's command and general staff as 
well as to prepare our equipment for deployment.
    USAID requested two USAR teams, one from each department. 
The two teams were composed of a total of 148 personnel trained 
in search, rescue, and medical services; and 12 live rescue 
search canines, like Atticus here--he is usually a little more 
active than this--who is here today with his handler Jennifer 
Massey. Working under the direction of experienced handlers 
like Jennifer, our live search canines are able to locate live 
victims deep within the rubble.
    Along with personnel and canines, we also bring with us a 
great deal of search and rescue equipment for operating in any 
type of construction or building. Each team has the capacity 
for physical, canine, and electronic searches, or what the 
average person refers to as looking, sniffing and listening.
    We also bring a vast emergency medical capacity, which 
allows for the treatment of injured team members as well as 
victims we find during operations. Other highly trained 
specialists on our teams are able to assess damage, determine 
needs, provide feedback to local officials, and conduct 
hazardous material surveys and evaluations of affected areas. 
The teams that deployed to Japan also had a water rescue 
capability, which was anticipated to be in demand due to the 
presence of the heavily flooded areas.
    USAID deployed two heavy teams to Japan, one from Fairfax 
and one from Los Angeles. This means that these teams had the 
highest classification possible under the U.N.-sponsored 
International Search and Rescue Advisory Group, or INSARAG, and 
designates the ability to search in any type of building, 
including reinforced concrete.
    The two U.S. teams arrived in Misawa, Japan, on March 13. 
We landed on a U.S. military airbase there. The military 
greeted, housed and fed us. Our 60-ton equipment cache was 
transported on trucks operated by U.S. airmen, all of whom had 
experienced the quake and were very happy to see a rescue team.
    After initial inbrief by local officials, we were 
immediately dispatched to Ofunato, one of the most affected 
areas in the Iwate Prefecture in northeastern Japan. The 
Japanese Ministry of Defense transported a large portion of our 
equipment from Misawa Air Force Base to where we set up our 
base of operations at the Setamai school in Sumita. We had had 
readiness meetings with local authorities to establish 
operational assignments, search criteria, and incident 
objectives. And at first light on March 15, the teams headed 
out to begin search and rescue operations alongside the 
Japanese and international search and rescue teams.
    Our two U.S. teams searched with teams from the United 
Kingdom, China, and many of our brothers from the Osaka and 
Ofunato fire departments. House by house and building by 
building, we scoured the debris-ravaged remains of Ofunato 
looking for victims.
    There were heavy losses in this once thriving community. 
Large boats and ships were scattered throughout the area, with 
many resting between building. Vehicles were all over rooftops, 
but the majority of the buildings in low-lying areas were 
simply gone. Some people lost everything, family, friends, 
their homes and businesses, and yet we were greeted with an 
outpouring of kindness that none of us will ever forget.
    After searching in Ofunato, we were unable to locate any 
survivors. Local officials asked that we move on in our search 
to Kamaishi, north of Ofunato. Much like in our previous 
search, the wall of water generated by the enormous quake 
destroyed the area surrounding the bay. Houses and buildings 
were unrecognizable.
    As a rescuer combing through the rubble, we were always 
searching for voids. Even the smallest void space can provide 
enough room for someone to possibly survive. Both of our teams 
deployed in the aftermath of the January 2010 earthquake in 
Haiti, and the U.S. teams were able to make an unprecedented 47 
live rescues. Some of these rescues were in void spaces so 
small and so precarious that I still can't fathom how some of 
them survived.
    But in Japan, we were searching in areas where the tsunami 
had utterly washed over and through nearly every possible void 
space. So if one might had survived the earthquake in a void, 
then they had to beat the odds a second time when the tsunami 
struck. Compound this with the fact that the weather was often 
below freezing. We knew the likelihood of finding someone was 
very, very slim. And yet the U.S. teams and our partners never 
gave up the search and our hope as we searched every inch of 
our assigned locations.
    We demobilized and returned home on March 20 after 
searching all locations assigned to us by the Japanese 
Government. It was difficult to accept that we were unable to 
find any survivors, but we were honored to have been deployed 
to help the Japanese in their time of need. Everywhere we went 
in Japan, we were warmly greeted by a resilient population that 
extended their arms to embrace our rescue teams even in the 
face of this utter tragedy.
    On behalf of the Urban Search and Rescue Teams in Los 
Angeles and Fairfax County, I would like to thank the 
Government of Japan for inviting us and the United States 
Government for deploying us to assist in the aftermath of this 
tragic disaster. I would also like to thank the Board of 
Supervisors for both Fairfax and Los Angeles Counties for their 
unwavering support of our international search and rescue 
efforts.
    I will be happy to take any questions you may have, sir.
    Mr. Manzullo. Thank you very much.
    [The prepared statement of Chief Zoldos follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Manzullo. Mr. Schriver.

     STATEMENT OF MR. RANDALL SCHRIVER, PARTNER, ARMITAGE 
                         INTERNATIONAL

    Mr. Schriver. Mr. Chairman, thank you very much for the 
invitation to address this committee. I am quite honored, and I 
am honored to be seated with my fellow panelists Mr. Zoldos on 
the front lines and my good friends Mike and Gordon.
    Let me add to the expressions of condolence that have also 
been made. The tragedy is 2 months past, but there are still 
people suffering in very dire circumstances, so it is important 
that we keep people in our thoughts and prayers.
    Let me just make two points up front. From time to time, we 
hear people question whether or not Japan will recover and 
reconstitute. I think we should dispense with that notion. 
Japan will recover. It is a great country, a great society, a 
great nation, and has a history, as the Ambassador said, of 
coming back from previous tragedy. The real question, the 
salient issue, is the pace and what trajectory. Will Japan 
slide into a middle power status given these not only recent 
events, but some of the other challenges they faced, or will 
they truly have the wherewithal to emerge to a regional and 
global status to where they have been for the past several 
decades?
    The second point I want to make up front, we should be 
very, very clear that it is in our interests in the United 
States for Japan to follow that second path, to the path of 
recovery to regional and global leadership. It is important to 
us not only because of our alliance and our affinity with our 
friends in Japan, but our regional strategy, in many ways our 
global strategy, is dependent on a strong alliance, what we are 
doing on the Korean Peninsula, our obligations in the Taiwan 
Strait, our mutual support for freedom of navigation and so 
forth. We need Japan to recover, and as a friend and ally, we 
need to be seeking out ways that we can help them make that 
fast recovery and return to a position of prominence.
    Japan, of course, has many of the immediate challenges that 
were already mentioned: The recovery of the immediate affected 
areas, relocation of population, dealing with the energy 
situation, and I would add to the comments already made about 
how impressed everyone is with how the Japanese citizens have 
responded, their strength in the face of this crisis, their 
benevolence to fellow citizens and to hosting our people.
    Let me also say in the immediate response, a 
congratulations and support is also noted for the Obama 
administration and how well they have done, and particularly 
our military services who responded alongside brothers in arms 
and rescue workers. So this was a joint effort extremely well 
done, and we should acknowledge that.
    The medium term, of course, and the longer term, there are 
some uncertainties. I think Japan's essential choice about 
turning inward or seeking to still retain positions of regional 
and global influence, these are real questions, and the 
discrete policy decisions that will be made in the present and 
in the near term will impact that.
    Again, our aspirations are for a strong Japan. We can't 
have and should not be complacent about Japan looking inward. 
But I would also add there are a few voices who have talked 
about a reorientation opportunity for Japan, some high-profile 
op-eds maybe, about looking at reorienting away from the 
alliance and maybe toward China.
    I just want to say that while China will surely be part of 
the recovery and will surely be part of Japan's trajectory out 
of this crisis, this would not be a very wise move, in my 
opinion. China is not the same kind of partner that the United 
States will be now and looking forward; at best, an unreliable 
partner. We only need to look at the events of 2010 to see 
China's more assertive sovereignty claims; vis-a-vis Japan, 
their cutting off of rare earth materials when Japan was in 
need; and in general, an attitude of supporting the adversaries 
of Japan, like North Korea. So I hope it is not an inward turn, 
but I also hope it is not a reorientation away from the 
alliance. I very much believe in the future of this alliance.
    I also just want to say, although most of us are consumed 
about talking about Japan's challenges and the uncertainties in 
Japan and decisions that they have to make, there are some 
uncertainties about the United States that we have to be 
realistic about. And if you are sitting in Tokyo or anywhere 
else in the region, there are questions about our own 
wherewithal.
    Japan looks at us, I am sure, and sees we are involved in a 
third war in the Middle East now. And will our attention be 
once again diverted away from Asia? They follow our budget 
debates and understand that there may be defense cuts coming. 
What would that mean for the alliance? What would that mean for 
the region? They wonder about our support for trade 
liberalization, a long hallmark of U.S. leadership in Asia. Now 
we are hardly in the game, as others are pursuing it in a 
robust manner. And they look at things like our own engagement 
of China, and they see something like the strategic and 
economic dialogue and the number of Cabinet secretaries and the 
President himself, their level of involvement with that. We 
have nothing like that with respect to our best ally in the 
region with Japan. So they look at these things, and they 
wonder about us. So I think as we think about how to help 
Japan, we also need to think about our own policies and our own 
positioning.
    So, again, I think it is absolutely vital that we invest in 
the future of this alliance for reasons that I have articulated 
and others have articulated. It does require the time and 
attention of our seniormost leaders. It does require, I think, 
for us to be a leader on trade, not a reluctant participant. 
And I think we should have high aspirations and expectations 
for this alliance, not give Japan a pass or in any way be 
implicit in an inward look on their part.
    Thank you.
    Mr. Manzullo. Thank you.
    [The prepared statement of Mr. Schriver follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Manzullo. Mr. Green.

STATEMENT OF MICHAEL J. GREEN, PH.D., SENIOR ADVISER AND JAPAN 
     CHAIR, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Green. Mr. Chairman, thank you for inviting me. Thank 
you for focusing on our ally in its time of need and support.
    The triple disaster of March 11 has been the greatest 
crisis Japan has faced since the war. More than 24,000 dead and 
missing. More than 400,000 displaced. More than 70,000 who have 
lost their jobs. I lived for a time as a student not far from 
the area where our colleagues from Fairfax were deployed in the 
Iwate Prefecture, and it has been personally heartbreaking for 
me to see this beautiful coast eliminated by the power of 
nature.
    For all the reasons my friend Randy Schriver said, Japan is 
our indispensable linchpin not only in the Pacific, but 
globally; the second largest contributor to the World Bank, the 
IMF, the United Nations. I worked for 5 years on the National 
Security Council staff. We could not do anything we do in the 
Pacific and beyond if we didn't have Japan as our ally. 
Americans know that.
    In the first month, $250 million was raised by private U.S. 
citizens. Thousands of Americans have gone to help. 20,000 from 
the U.S. military. For our part, at the Center for Strategic 
and International Studies, we have established a task force 
called the Partnership for Recovery with Japan's Business 
Federation Keidanren. The task force is chaired by the CEO of 
Boeing Jim McNerney, and we have about 25 prominent Americans 
at that level from civil society think tanks and the corporate 
sector, and we are working with our colleagues in Japan to come 
up with ideas and areas where the U.S. can help as Japan charts 
its recovery and moves on a trajectory to a strong economic 
position and strong role in the world. And we would be very 
happy to brief you, and the members of the committee, and your 
staffs as we move forward and get some concrete ideas out on 
the table. We will be traveling to Japan in June.
    I have seen some of the opportunities and challenges Japan 
will face coming out of this. I would like to focus on what I 
would say are three strengths and three problems, three 
challenges. The three strengths are things that people who knew 
Japan understood. But I think for much of the world, the 
Japanese public's response to this crisis has really 
spotlighted some resilience that much of our media had 
forgotten about.
    First is the esteem and respect with which Japan is viewed 
around the world. Public opinion polls taken globally have 
always ranked Japan in the top three countries or four 
countries, often first, in terms of respect worldwide. Well 
over 100 countries have responded, rich countries like the 
United States or Britain or Australia, but countries like 
Afghanistan, where people from Kandahar who have benefited from 
Japanese aid have sent money, sent rugs and blankets to help. 
It is played back in the Japanese media, and people appreciate 
this in Japan. It has, I think, given a new sense of how 
important Japan is to the world, to the Japanese themselves.
    Secondly, Randy touched on this, it really is important, 
the performance of the Japanese Self-Defense Forces and the 
U.S. military with them in a supporting role was exemplary. 
Operation Tomodachi, which means ``friend,'' is the largest 
joint and combined operation we have ever done with Japan. And 
our friends and adversaries alike will take note of the fact 
that in 3 days we rebuilt Sendai airport, which had been 
absolutely devastated. That is no insignificant 
interoperability incapacity. It reassures our friends; and as I 
said, our adversaries will take note of how close we are.
    Third, the Japanese youth, which has been dismissed in 
recent writings as sort of lost and without a goal, has been 
incredible in this crisis. Over 300,000 people have volunteered 
from within Japan to go north. Companies and schools are giving 
volunteer vacations. I teach at Georgetown, and just about 
every Japanese student I have ever had or intern I have ever 
had has dropped what they are doing and has gone north really 
speaks well to the next generation of Japanese leadership.
    Three challenges. The economic one is quite clear. As the 
Ambassador said and Randy said, Japan will recover. The fiscal 
situation is stressful. They will manage that. There will be 
some hollowing out in Tohoku as companies diversify their risk 
from production. Twenty to thirty percent of production may not 
come back to that region, but that is an opportunity to rebuild 
a new kind of economic model in that part of Japan.
    Secondly, energy. The rolling blackouts are over. Energy 
supply is adequate. But in the long run, Japan had planned on 
moving from 30 percent of energy supply from nuclear to 50 
percent. That is going to be hard. Japanese public support 
nuclear, but they are going to have to look at this. I think if 
Japan investigates and reports on this experience, it will be 
well positioned to lead the world in defining new safety 
requirements for peaceful nuclear energy.
    Finally, politically this has stressed the Japanese 
Government. There are a lot of ideas, a lot of plans. There is 
no centralized planning process yet. It will come. It is a 
challenge. I think the opportunity is that we have seen in this 
crisis some new political stars start to rise and some real 
energy in all the major parties.
    We will stand with Japan, all of us. This committee has set 
the example. Ultimately Japanese leaders will make the 
decisions, make the calls, but the fact the United States is 
there with them to offer support, ideas, and assistance will 
matter enormously. So I thank you for calling this hearing and 
for your support as well.
    Mr. Manzullo. Thank you.
    [The prepared statement of Mr. Green follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Manzullo. Mr. Flake?

   STATEMENT OF MR. L. GORDON FLAKE, EXECUTIVE DIRECTOR, THE 
             MAUREEN AND MIKE MANSFIELD FOUNDATION

    Mr. Flake. Thank you, Mr. Chairman. I, too, am honored to 
join my fellow panelists in addressing this important topic at 
this time.
    With your lead, I will just summarize a few of the key 
points from my written testimony. But first and foremost, I 
want to very much associate myself with the comments of my 
fellow panelists. I very much agree with them, and in my 
written comments you will see that there are similar veins in 
terms of our relative optimism about the recovery of Japan and 
the potential of this tragic event to in a positive way affect 
the trajectory of Japan as a nation and as an ally of the 
United States.
    As I understand, the underlying assumption of the panel and 
the reason we are holding it today is that the events of March 
11, as tragic as they were, have the potential to alter Japan's 
trajectory, and there is some concern that it may cause Japan 
to kind of pull inward. With an already difficult fiscal 
situation in Japan, with a tremendous cost incurred by this 
tragedy, there is concern that Japan will no longer be willing 
or able to engage with us in the region as we have done in the 
past. And I think that is a very important issue for us to 
address, given the importance of Japan as our ally in Asia and 
how much we rely on things that we do jointly.
    I think if you look at my written testimony and the 
comments made earlier, I am generally optimistic that that 
won't be the case. But rather than speak about the issue more 
broadly, I think it is useful to look at one very specific and 
important example in the region itself. So I, in my written 
remarks and today, will choose to focus really on Japan-South 
Korea relations as two of our most important allies in the 
region.
    So as a way to sort of use a litmus test to kind of test 
the assumption that Japan might be retrenching--and I think, 
again, looking at the case of Korea gives you perhaps exactly 
the opposite answer--that the events of March 11, as horrific 
as they may be, actually in the short and long run will likely 
have a positive influence on relationships between our two most 
important allies that at times in the past have been troubled, 
and this is a rare and important opportunity for us to improve 
those relations and for Japan and Korea to work together as 
they go forward.
    I would note that many of the issues that we were asked to 
address in this panel are also directly relevant to that core 
relationship in Northeast Asia: The question of 
denuclearization, particularly in North Korea; the question of 
human rights, again, with North Korea being first and foremost; 
free trade. Obviously we are at the cusp, hopefully, of passing 
the Korea-U.S. Free Trade Agreement, the KORUS. It is something 
that would have a tremendous impact on U.S-Japan trade 
relations and, of course, on Korea-Japan trade relations going 
forward. The broader question of the role of China in the 
region. All of these things really are tied up in that 
relationship between these two core allies that we have in 
Japan and Korea.
    I would note that prior to the events of March 11, the 
Korea-Japan relations were on a historic upswing. Political 
changes in both Japan and Korea really resulted in a remarkable 
improvement in the political relationship, which had been 
difficult because of historical legacy and other issues, 
territorial disputes, et cetera. But there was remarkably close 
coordination with Washington on North Korea; on North Korea 
policy; on joint responses to actions by North Korea; on 
actions and inactions by China in the region, everything from 
China's ignoring the sinking of the Cheonan or the Yeonpyeong 
shelling to China's actions in the Senkaku Islands or their 
statements on the South China Sea. These all serve to push 
Korea and Japan as allies of the United States ever closer 
together.
    And you had some real positive developments on the security 
front with some historic developments in South Korea and Japan 
military-to-military relationships, with South Korea and 
defense officials attending and observing U.S.-Japan naval 
exercises and vice versa.
    So again, we are on the uptick. So the question really 
would be for this panel today, how did the events of this past 
March affect that trajectory?
    It is important to note that Korea was the first country to 
have a search and rescue team on the ground in Japan. It was 
partly due to proximity, but it is a remarkable statement of 
how things have changed in that relationship. Some 76 percent 
of the Korean public polled shortly thereafter were highly 
supportive of that deployment and of gathering aid to send to 
Japan, again which tells you how dramatically things have 
shifted in that relationship in a positive direction, and that 
included some very high-profile entertainers and others. They 
are emblematic of the changes in that relationship as you go 
forward.
    I would note, if you look at, again, some of the 
fundamental questions that the committee has raised, there 
really is, as a result of the events of March 11, no change in 
policy coordination toward North Korea. That will continue 
unabated. Just this past weekend there was a very successful 
Japan-South Korea-China summit meeting in Japan where, as the 
Ambassador mentioned, they went jointly to the disaster area 
where they began to push for a free trade agreement.
    The Ambassador also mentioned Japan's commitment to 
consider TPP. I would urge that if the United States is 
successful at passing the Korea-U.S. Free Trade Agreement, it 
would be a tremendous driver for cooperation between Japan and 
Korea in the region on free trade and other issues that we have 
a great interest in here in the United States as well.
    Also issues such as human rights, of course, are not 
resource-driven. So at least in the Korea-Japan relationship, 
the premise that somehow Japan deprived of resources is going 
to turn inward, I think, is probably going to be the exact 
opposite. The Ambassador gave a very telling statistic that, 
despite this historic and devastating earthquake, tsunami, and 
nuclear crisis, they are only planning to cut their foreign aid 
7 percent. And in these days of budget cutting in Washington, 
DC, 7 percent seems like an awfully small number to me in that 
regard as you go forward. Again, it is emblematic of Japan's 
commitment to the region as we go forward.
    I would just say that the United States can do nothing 
better than to continue to support these trends that I have 
just outlined in the trilateral relationship between the United 
States and its two important allies in Asia.
    Thank you very much.
    Mr. Manzullo. Thank you.
    [The prepared statement of Mr. Flake follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Manzullo. The congressional district that I represent 
has over 2,000 factories. It is one of the most densely 
populated manufacturing areas in the country, with quite a bit 
of Japanese foreign direct investment. Mitsubishi, known for 
automobiles and rockets, actually owns the only American 
production facility of rice crackers, which are made in 
Rockford, Illinois. Nippon Sharyo broke ground to build a 
massive $40 million facility to build cars for the Chicago 
Metro. Rocknel Fasteners. We could go on and on with the extent 
of the massive investments by the Japanese into the United 
States.
    I am concerned over the issue of the United States, quite 
frankly, focusing a lot on China and not focusing enough on our 
friend for years and years. Mr. Schriver, you had mentioned the 
fact that China had cut off the supply of rare earth minerals 
at a time when here in this country we have a tremendous 
shortage in the permanent magnets, neodymium iron boron and 
samarium cobalt. China has a 97 percent share of manufacturing 
those items, and, of course, they are used in electronics and 
guidance systems and in batteries for hybrid and battery-driven 
automobiles.
    My question is: Are we just sitting on the sidelines 
watching things happen, watching China continue to dominate or 
try to dominate the manufacturing sector, and neglecting our 
bilateral relationship with Japan? It is kind of a tough 
question, but you guys didn't think I would throw a softball, 
did you? Does anybody want to take a stab at that? Mr. 
Schriver?
    Mr. Schriver. Well, I guess I introduced the topic 
partially. I think there are a number of ways to measure 
support and sort of take the temperature of a relationship. 
Certainly when it comes to the time and attention of our 
seniormost leaders, it looks like sort of a sinocentric 
approach to the region, that strategic and economic dialogue 
which we are now in our third round of that. At one point last 
year during our visit to Beijing in conjunction with that 
dialogue, over half the U.S. Cabinet was in China. And I think 
in terms of measuring the relationship in that regard, we just 
aren't doing that same kind of investment with our closest 
allies.
    So I think people watch that. And you could say, well, that 
is process, and it is symbolic. It is not substance. But I 
think in some cases, the symbolic gestures do affect substance, 
and certainly affect impressions and perceptions. So I think 
more time and attention to our best ally, first among equals 
for sure in Asia, warrant it.
    Mr. Manzullo. But how do you do that?
    Mr. Schriver. Well, we have been unable to schedule a two-
plus-two meeting, which is the Foreign Minister/Defense 
Minister meeting. Why has it taken so long to do that and have 
that kind of meeting at a time when I think it would be very 
welcome? We need to be creative about putting the U.S.-Japan 
alliance in a leadership role when it comes to regional and 
global problem solving, not relying on China, some people have 
gone so far as to suggest a G-2 with China. So it is an 
investment in sort of the bureaucratic infrastructure, but it 
is really outlook, and it is really aspirations for the 
alliance, and I think our aspirations for the alliance could be 
higher.
    Mr. Manzullo. Mr. Flake.
    Mr. Flake. Well, I would very much agree with Mr. Schriver 
that there needs to be more attention paid to Japan. I would 
caution against trying to measure relative importance just by 
the amount of time spent on an issue. I think the amount of 
time we spent on China is more representative of the 
difficulties that we face in that relationship in that regard.
    And I would point out that tragic events like that of March 
11th really do tend to bring home the level of importance and 
the level of closeness in the relationship. And so in this case 
alliances matter. The notion that we could have that level of 
close coordination on relief efforts, as both the Ambassador 
and Dr. Green highlighted in terms of this Operation Tomodachi, 
with a country where we didn't have 40 years of close--50 years 
of close alliance, coordination, and cooperation, it is kind of 
fanciful in that regard. And I do think that events that we 
have seen right now have tended to focus the attention of the 
United States on the importance of that ally.
    So the amount of bureaucratic and other attention paid to 
Japan in the month immediately following the tsunami, 
earthquake and nuclear crisis, I think, was unprecedented in 
terms of the teams that went out there. Obviously the key right 
now is to sustain that.
    Mr. Green. If I may, when George Shultz was Secretary of 
State, he said that our security in the Pacific and across the 
Atlantic depends on our allies. But the diplomacy of alliances 
is like tending a garden; you have got to get up every morning, 
you have to pull the weeds.It is labor-intensive; it is not 
always dramatic or not always in the press. When have you 
difficult big relationships like we have with China, that all 
gets in the press. And so there is a natural tendency for 
senior officials to want to get the headlines, to go for the 
big win in relations with China. But in the long run our 
ability to manage China's rising power will depend on how much 
gardening we do in the alliances.
    And there are issues. Randy mentioned scheduling the two-
plus-two, the senior meetings; defense making a decision on its 
next fighter, and we are going to have to work through the 
bureaucratic process of helping them hopefully decide on an 
American aircraft, for example. There is just a lot of this 
kind of gardening.
    Frankly, to the extent that Congress is engaged in this 
dialog, it is keeping the spotlight on it with the 
administration, that helps a lot, because, as I said, the 
gardening part is not always going to get the headlines, but in 
the long run that is what really counts.
    And you can see the results in Operation Tomodachi and the 
way our militaries operated together, this huge joint and 
combined operation. We can do that about almost no one else in 
the same way. So it is not as if people haven't put in the 
work, but with fewer time on the calendar, this alliance 
management is going to need a renewed energy from the 
administration, State Department, Pentagon, but across the 
board.
    Mr. Manzullo. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate the 
opportunity and thank the panel for being with us today.
    What long-term effects--and any of you can respond to 
this--what long-term effects, if any, will the disasters have 
on the competitiveness of Japanese companies, particularly in 
the auto and electronic sector? And how does the disaster 
impact the U.S. manufacturing sector and jobs? Because we get 
quite a few raw materials from Japan, particularly in the steel 
industry, that are needed here. So what long-term impacts do 
you see there?
    Mr. Green. The Japanese manufacturing sector, the 
production chains were interrupted. My wife and I tried to buy 
a car recently, and we were told, at Japanese auto dealerships, 
Mitsubishi, Toyota, and so forth, there is a 3- to 6-month 
waiting list. It wasn't just final manufactured and sold cars. 
Korea has terrific wireless and cell phone technology, but you 
open up any Samsung or Lucky Goldstar cellphone, and the 
critical semiconductors inside are Japanese.
    I was recently in Seoul and talked to the president of a 
major chaebol, a major conglomerate, and he said very candidly 
when they were interrupted--Korean production was interrupted 
because they couldn't get these critical components from 
Japan--they looked seriously at creating that capacity 
themselves in Korea and concluded it was 5- to 10-year 
enormously expensive effort. And they didn't try because they 
figured Japan would be back on track within a matter of months.
    So I think Japan will retain that competitive edge in these 
critical subcomponents. But what I am hearing from Japanese 
executives I have talked to is they are going to diversify a 
bit. The number I keep hearing is 20 percent, 30 percent of the 
production, and manufacturing that was in northern Japan is 
going to be moved. Some of that may come to the U.S., some of 
it will go to India, some of it will go to China. But the 
business community is becoming wary of China. Because the 
Chinese side overplayed its hand when it took this mercantilist 
step of cutting off rare earth exports because of a diplomatic 
flap, that sent a message to the whole world and the 
marketplace. So the Japanese are going to look at India and 
Vietnam, and they will diversify and hedge their risk.
    In the long run I think that means the economy will be back 
on track. There may be more jobs for us. We can count on Japan 
as a supplier. It creates possibly a different economic model 
in northern Japan, possibly an opportunity. They are going to 
have to rebuild, they can create a new IT, a different kind of 
economic model there.
    So there will be changes, but I think competitiveness is 
going to be restored and maintained.
    Mr. Johnson. Kind of a corollary to that, the Japanese 
Government recently announced that it would have to postpone 
its decision on whether to participate in the negotiations of 
the Trans-Pacific Partnership, or TPP. How would the lack of 
Japan's participation affect the effectiveness of the TPP 
negotiations? And is Japan's participation necessary, in your 
view, for the success of the TPP?
    Mr. Green. If my colleagues don't mind, the reality--my 
first job in government was in USTR, so I know how they think. 
The reality is that negotiating with Japan is tough, the third 
largest economy, the second largest OECD advanced industrial 
economy. TPP right now in countries like New Zealand, Singapore 
are easier to negotiate with.
    So I think negotiating with Japan will be tough. And there 
are some who are, I think, in the U.S. Government and other 
governments in TPP on the fence about whether they want to get 
into that big scrum in the Japanese Government because they are 
good negotiators.
    Strategically, however, in the longer term, if we don't get 
Japan in TPP, it doesn't accomplish what we should really want, 
which is building a trans-Pacific trade architecture. It 
ensures that as Asia integrates, we are in, and that we have 
access and opportunities. So sooner or later it is, I think, 
undeniably in U.S. interests for Japan to be in.
    Mr. Johnson. So basically if I understand what you are 
saying correctly, TPP, its effectiveness in ultimately 
achieving what we were trying to achieve with TPP, it is 
essential that----
    Mr. Green. Eventually, that is right.
    Mr. Johnson. If Japan is not going to be a part of it, we 
are not going to get out of it what we are looking for.
    Mr. Green. That is right. If it is going to really define 
trade rules across the Pacific, eventually we have got to have 
Japan.
    Mr. Johnson. Thank you, Mr. Chairman. I yield back.
    Mr. Manzullo. Mr. Kelly, who knows a little bit about 
automobiles.
    Mr. Kelly. Thank you, Mr. Chairman.
    I am an automobile dealer, and we can help you with that 
car you can't find. We do have some Korean models that probably 
will fit in there real well.
    Chief, I want to congratulate you on the efforts as I think 
that the United States has always been the first responder. No 
matter where the disaster takes place in the world, no matter 
what the issue may be, we always seem to be the first one there 
with the most help. Any lessons learned?
    Chief Zoldos. A couple major lessons learned. That was the 
first time our team had actually been collocated with two other 
major teams. The Fairfax Team, USA Team 1; and USA Team 2, the 
Los Angeles team; and the United Kingdom's ISAR team were all 
put at one location and really operate as a triple team, if you 
will. That combined with the fact that the Japanese LEMA, local 
emergency management, was very well defined and had the 
situation very well detailed as far as operational assignments. 
Those two together really mapped out our day far more than we 
are normally used to. Our last mission was to Haiti, and 
obviously that was much more of an open rescue environment.
    I think one of the takeaways is that when we are working in 
that sort of--those restrictions and how well the day is laid 
out, we really look farther down the road, because our first 
operational assignment was 1 square kilometer for the entire 
day. Obviously we can knock that out with 74 people in just a 
matter of hours.
    So it is getting the understanding of what our team's 
capabilities are out there. Our team is an international 
classified; there are only 21 teams like that. And with that 
goes a fact sheet, goes some understanding of what our team can 
do. I think the more teams operate with the Japanese, with the 
Chinese and other teams that are out there, that understanding 
of our capabilities will allow for more seamless operation.
    Mr. Kelly. And I know for about 50 years we have had a 
great alliance with Japan. I know there has been some fear on 
the Japanese side that somehow they may get abandoned by the 
United States. Certainly our response and our commitment 
smoothed over some of those fears. Were you able to detect that 
at all while were you there?
    Chief Zoldos. Well, the one interesting part was, and we 
have said this many times, firefighters are firefighters 
worldwide. And we were welcomed as part of the team, and really 
it was seamless. Our briefings were at 8 p.m. Every night, and 
the Osaka Fire Department ran that operational area. They 
brought their people up, and they were the commanding general 
staff. And we were at the table just like everyone else was. So 
there was sort of a comfort level between fire rescue 
professionals there.
    Mr. Kelly. From an economic standpoint, I am a very big 
backer of the KORUS agreement. I am not sure that our approach 
to it makes sense. I think we approach everything that we do as 
having some type of a political push on one side or the other. 
By having hearings like this, and Mr. Blake, Mr. Green and Mr. 
Schriver have been able to address that.
    The upside of a free trade agreement with Korea right now 
is so critical to the United States and our economic recovery. 
I just wonder a little bit, because you made, I think, a very 
good statement saying that we are the custodians or we are the 
stewards of what we have right now, which we really don't own 
anything; it is just put in our care and custody until the time 
we actually have control. The idea is to make it better for 
that next generation coming after us.
    I am really worried right now that we have again back-
burnered a trade agreement that is absolutely--it is not an 
option, this is essential. We are talking a $10-$12 billion 
upside for the United States, and we made it political to see 
who is going to blink first as to whether we pass that or not.
    If you could--because these are the type of hearings that 
shed some light for the American people as to what is actually 
going on--just if you could, give a little bit of a walkthrough 
for us of what the upside of that KORUS agreement would be, not 
in addition to Panama and Colombia, but I do know firsthand 
with Korea and how it would stabilize that part of the world 
for us. I mean, we have got two very good allies that we have 
to rely on in an area that is really under great duress right 
now by an aggressive Chinese President. So if you could give 
just us a little upside of that.
    Mr. Flake. Let me start off with that and say first and 
foremost I agree with you completely. If you were looking at 
further upsides in the Korea-U.S Free Trade Agreement above and 
beyond the jobs, which again, obviously, on a domestic level is 
most important, but on a broader strategic level there really 
is a competition in some level going on between the United 
States and China in this region. One of the subtexts of this 
hearing is what is going to happen if Japan is no longer 
engaged? Does that not cede the ground to China?
    If we fail to ratify a free trade agreement of this 
magnitude with one of our closest allies in the region, what 
does that say about American economic leadership in the region 
when all the other countries are watching this deal? The notion 
that we could go forward with the Trans-Pacific Partnership, 
the TPP, if we fail to get KORUS is fanciful, right?
    On the flip side of that, if we do ratify KORUS and move 
forward on that front, it puts tremendous pressure on Japan--
actually in some ways not pressure, it actually opens the field 
for Japan to move forward in working with us on TPP. Obviously 
Korea's free trade agreement is what we call a gold standard, a 
high-level, high-quality free trade agreement, and Koreans 
would almost automatically be in the TPP in that process. And 
the notion that Japan then could sit on the sidelines again 
kind of misses the broader kind of strategic realities in the 
region.
    So I think from our own national interests, from our 
leadership in the region, from these competing models of free 
trade and economic development in the region between us and 
China, and from the relationship with our two allies on a 
strategic level, I can't think of anything we could do better 
at this point. I agree with you wholeheartedly.
    Mr. Green. We are all friends of long standing; Gordon 
worked for the Obama campaign, Randy and I worked for the 
McCain campaign, but you would be very hard pressed, in fact I 
think you could not find an expert on Asia who spends time in 
the region and thinks about it, Independent, Republican or 
Democrat, who is opposed to the KORUS FTA. It is critical to 
our future in the region. As you mentioned, 10-plus billion 
dollars in new economic activity.
    But in Asia there are, depending on how you count, well 
over 100 FTAs now signed or being negotiated. We are in about 
three or four of them. If we don't ratify this free trade 
agreement, we are not going have the credibility to get into 
any trade negotiations in Asia in the future.
    What does that mean? I mean, not only are we going to miss 
opportunities to reduce barriers to trade in terms of tariffs, 
these are the free trade agreements and the arrangements that 
are going to write the rules for everything from services, to 
labor protection, to environment, to what kind of access and 
contract--I mean, everything. It is much more than just the 
tariffs involved. It is about rulemaking in the most dynamic 
economic region in the world.
    So, you know, our friends, all of us experience this. Our 
friends in Asia are sort of perplexed why we are not moving 
expeditiously to pass this. I know the reason, not as well as 
you all do, but free trade agreements are hard. But in terms of 
our position in Asia, it frankly is a no-brainer to most people 
who follow the region.
    Mr. Schriver. I will just add to that very briefly, because 
I agree 100 percent with my colleagues. A lot of us, even on 
the other side of the aisle, worked on the Republicans when the 
Obama administration came in and said we are back in Asia. We 
were grateful to see that and grateful to see the time and 
attention. But you cannot be back in Asia without a trade 
agenda, you cannot be back in Asia if you are not part of the 
discussion and the dialogue about trade and commerce, because 
that is the lifeblood of this region, and we are not in the 
game right now. KORUS is important for the economic and the 
trade benefits, but it is of strategic value for us and for the 
alliance.
    You know, there is an expression about warfare: It is too 
important to be left to the generals and the military. This 
trade policy right now needs to transcend trade officials, it 
needs to transcend politics. We need leadership, and we need to 
get it done, and we need to do TPP as well. Otherwise we are 
not back, and we are not in the game.
    Mr. Kelly. I sure hope we move in that direction, because 
we all know this. The strength of the alliance is the strength 
of each member, and the strength of each member is on the 
strength of the alliance. So we have got to work together, and 
we have got to move forward. This is not a political; this is 
an American solution to American needs. So thank you very much 
for coming here today.
    Mr. Manzullo. This last February I was in Christchurch, New 
Zealand, along with seven other Members of Congress, and we 
left 2 hours and 21 minutes before the massive earthquake.
    I think, frankly, there is no foreign trade policy of the 
Obama administration. Let me just throw this out to you, what 
we found to be extraordinarily disturbing. New Zealand is a 
very interesting country. It is a small country. We got into 
some very earnest discussions with the Speaker of the House Mr. 
Smith and others in the government over the fact that New 
Zealand was almost willing to close their eyes to infringement 
on software by China in exchange for more trade with China.
    That really was the purpose of my congressional delegation, 
because we also had a similar problem with Australia, but not 
as extreme as what we are experiencing with New Zealand. Our 
mission there was to try to impress upon the people in both 
those countries the absolute importance of protecting 
intellectual property.
    There was a study that just came down, I believe, from 
either a think tank or a government agency--that said that the 
Chinese were responsible just in the past year for $40 billion 
of lost profits as a result of violating intellectual property. 
That is extraordinarily disturbing because it continues 
unabated.
    We held a hearing with the people from Fellowes, Inc. They 
make paper shredders out of Congressman Roskam's district. They 
just lost $190 million worth of property in China in a total 
takeover by one of their supposed partners. No one complains 
about that. The trade missions continue, and people want to 
form these partnerships. China is going in the opposite 
direction on openness, on enhancing economic freedom, on the 
manner in which people are treated and human rights, and, as 
far as I am concerned, in terms of their business dealings.
    I know this hearing is about Japan, but it goes to show 
here we have Japan, which is a democracy. It is a light in that 
part of the world where there are very few democracies, and I 
think that we should be doing everything we can to help Japan 
as opposed to letting China continue unabated with a ruthless 
dictatorship, because somewhere down the line we are not going 
to be able to have light and darkness in the same room with 
people who have that sense of core values.
    That was more of a statement than a question, but if any of 
you want to comment on that, I would be open to that.
    Mr. Schriver. Congressman, we appreciated your trip to New 
Zealand. I was actually in Christchurch as part of the Track 2 
delegation. I did not quite get out in time before the 
earthquake, but your mission----
    Mr. Manzullo. We almost thought we would see Atticus and 
the team down there.
    Mr. Schriver. Your mission was very well received there, 
because I think, right to your point, people want an 
alternative.
    Of course China's going to be extremely important to the 
region, and we can't begrudge China for their strategy to not 
only engage in these trade relationships for their economic 
benefit, but they are seeking political gain, and trying to 
improve their lie--in the golf sense--and improve their lie in 
the region. We can't begrudge them for that, but we have to be 
giving an alternative to our friends and allies, and that is 
what I am afraid we are not doing right now.
    I think Japan, just to return to that topic, you know, in 
an odd way it might be a good thing that they can't join the 
TPP discussions at this juncture because I think it probably 
would have made the goal of having a framework agreement by 
APEC and November 11th a little bit beyond our reach. It is 
still a tough road to get to Hawaii in November and have that 
framework agreement. But if we get it, and we get KORUS, then 
Japan well have that tough choice are we in or are we out, and 
I think they will be in, and that will be to everyone's 
benefit.
    But we have to exert leadership and we have to give the 
alternatives; otherwise how could we blame these smaller 
countries when they look at the market----
    Mr. Manzullo. Well, perhaps it would be not only good in 
diplomacy, but in terms of enhancing trade for us to encourage 
Japan to continue in these talks. This TPP is not going to come 
to a final agreement this year. It is not going to happen. But 
I think perhaps one of the things we should do is continue to 
work with the Ambassador and our other colleagues in Japan to 
have them be part of those talks so they are not on the outside 
and nothing is strange to them whenever we come to any type of 
an agreement.
    Mr. Green. I think that is right, Mr. Chairman. We do have 
to be a bit sensitive that we don't appear to the Japanese 
press to be thrusting them at them against their will. There is 
plenty of support in Japan for this. I think it will be 
generated from within. We should do what we can to encourage 
and facilitate Japan's participation.
    This connects, I think, to your first point about how we 
maintain strong relations with our allies and don't all rush to 
China.
    Randy and I both have small kids, and when you watch them 
play soccer, the coach tells them, you are the fullback, you 
are the goalie; and then the ball goes on the field, and they 
all run to the ball. And frequently our Asia policy looks like 
that. The ball is China now, and everyone is running there. But 
if we invest more time in encouraging progress on TPP, and 
passing the free trade agreement, and talking to Japan about 
the future of their participation in TPP, we will be in a much 
better position.
    On intellectual property rights, Randy and I butted our 
heads against that issue in government for 5 years. If we have 
a regionwide consensus through trade agreements we are leading 
on about the need to protect intellectual property rights--
because Australia and New Zealand have their interests, which 
are primarily agriculture. They are not going to fight that 
fight for us. I think your trip helped.
    But Japan and Korea, they do have real concerns about 
intellectual property rights; not software, but manufacturing 
process technology. So if we have got a broad consensus in the 
region about the rules for protecting intellectual property 
rights, that is worth much more than 10 of these strategic and 
economic dialogues where half the Cabinet cajoles the Chinese 
for a day. If the rules are being written in a way the Chinese, 
are we in or out, I think they will come in, they will start 
coming around, in part because I think the Chinese leadership 
knows that if they don't have a better system for protecting 
intellectual property rights, they are not going move up the 
development chain themselves. They are not going develop the 
next generation of companies and technology if you can just rip 
off software and technology the way you can in China now.
    So it is not as if the system in China is going to be 100 
percent against this. If they see the rules are being written a 
certain way across Asia, I think that will put us in a much 
better position.
    Mr. Flake. I could very briefly say that I very much 
appreciate you raising this issue in the context of the U.S.-
Japan relationship, because really there is a competition for 
what the standards and the norms of the region and the globe 
are going to be. In that regard Japan's full recovery and their 
active participation in setting those is very much in our 
interest.
    When you look at questions like intellectual property 
rights, the rule of law, the basic questions and value of 
standards and norms, this is an area where Japan's recovery is 
our recovery in that regard, because it is by working together 
with our allies where we have these shared values, standards 
and norms that I think we have much more influence not just in 
the region, but in the globe at large. So it puts it very much 
in the context of what we are talking about.
    Mr. Manzullo. We want to thank you all for coming. Atticus, 
did he take a snooze over there? He is just taking it easy over 
there. He is named after Atticus Finch in ``To Kill a 
Mockingbird.'' He stood up. We want to thank you all for 
coming. I have never really talked to a dog like this in a 
hearing before. But we want to thank you all for coming.
    I think it was extraordinary that the Ambassador came here 
today and bared his soul. You could tell the pain of the 
disaster is written all over his face because he is an 
extraordinarily sensitive individual. I have had the 
opportunity to get to know him very, very well. He is such a 
man of honor, and for him to speak here today and then talk 
about the needs of his country was magnanimous on his part, and 
also on the part of the Japanese Government that fully 
participated, wanting to get out the message that Japan is on 
its way back.
    Chief, we want to thank you for the work that you do, and 
the reason that we had you come here is to really lay the scene 
as to the extent of the damage, and the waste, and the 
heaviness that is on your heart and your fellow workers' that 
went over there, and the obvious disappointment that you 
couldn't find anybody alive. I think that statement more than 
anything pointed out the nature and the extent of the 
devastation. So, we want to thank you. We want to thank each of 
the panelists for taking the time to spend with us this 
afternoon.
    This subcommittee is adjourned.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Manzullo statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Faleomavaega statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Faleomavaega FTR deg.__

      Material Submitted for the Record by the Honorable Eni F.H. 
     Faleomavaega, a Representative in Congress from American Samoa

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
